                                                                             Office ofInspector General

                                                                             U.S. Department of Homeland Security
                                                                             Washington, DC 20528




                                                                              Homeland
                                                                              Security

                                                  SEP 2 6 2011 


MEMORANDUM FOR:                        Tony Russell
                                       Regional Administrator, Region VI
                                       Federal Emergency ~a/.~emen.t
                                                                   Agency

FROM:                                  Matt J adacki
                                       Assistant
                                                         IIItt1t0
                                                    Insp~~th~
                                                         Gener
                                                                  . . .- .
                                       Office of Emergency Management Oversight

SUBJECT:                                FEMA Public Assistance Grant Funds Awarded to
                                         Jesuit High School, New Orleans, Louisiana
                                        FEMA Disaster Number 1603-DR-LA
                                        Audit Report Number DD-11-21

We audited public assistance grant funds awarded to Jesuit High School (Jesuit) in New
Orleans, Louisiana (Public Assistance Identification Number 071-U5K9S-00). Our audit
objective was to determine whether Jesuit accounted for and expended Federal Emergency
Management Agency (FEMA) grant funds according to federal regulations and FEMA
guidelines.

Jesuit received an award of$11.5 million from the Governor's Office of Homeland Security
and Emergency Preparedness (GOHSEP), a FEMA grantee, for damages resulting from
Hurricane Katrina, which occurred August 29,2005. The award provided 100% funding for
21 large projects and 1 small project. 1 The audit covered the period August 29,2005, through
May 14, 2010, the cutoff date of our audit, and included a review of nine large projects
totaling $10.5 million, or 91 % of the total award? We also performed a limited review of the
remaining 13 proj ects totaling $1.0 million to determine the type of contracts Jesuit awarded
and whether the contract costs complied with contract terms and conditions, or whether Jesuit
claimed duplicate costs (see Exhibit A, Schedule of Questioned Costs). As of the cutoff date
of our audit, Jesuit had claimed $10.8 million.




1   Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
2 We audited the gross amount of$12.1 million awarded before reductions for insurance and U.S. Small
Business Administration loan proceeds.
Table 1 shows the gross and net award and claim amounts before and after reductions for
insurance and Small Business Administration (SBA) loan proceeds for all projects and for
those in our audit scope.

                    Table 1. Gross and Net Award and Claim Amounts
                                                     Insurance
                  Gross Award Gross Claim             and SBA    Net Award    Net Claim
                    Amount       Amount              Reductions    Amount      Amount
  All Projects     $13,978,030 $13,340,595          ($2,490,985) $11,487,045 $10,849,610
  Audit Scope      $12,052,472 $11,415,037          ($1,548,610) $10,503,862  $9,866,427

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based upon our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based upon our audit objective. We conducted this audit according to the
statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, GOHSEP, and Jesuit officials and contractors; reviewed
judgmentally selected samples of project costs (generally based on dollar value); and
performed other procedures considered necessary to accomplish our objective. We did not
assess the adequacy of Jesuit’s internal controls applicable to grant activities because it was
not necessary to accomplish our audit objective. We did, however, gain an understanding of
Jesuit’s method of accounting for disaster-related costs and its procurement policies and
procedures.


                                    RESULTS OF AUDIT

Jesuit accounted for FEMA grant funds on a project-by-project basis as required. However,
Jesuit did not comply with federal procurement standards in awarding $12,027,768 of
contracts, and its claim included ineligible and unsupported costs. As a result, we question
the following $11,585,610 in ineligible and unsupported costs:

   •		 Finding A: $6,131,683 of ineligible contract costs billed under noncompetitive and
       improper contracts (net of $1,178,158 insurance proceeds and net of $4,717,927 that
       we also questioned in other findings—see Exhibits A, Schedule of Questioned Costs,
       and B, Costs Questioned Under Multiple Criteria);
   •		 Findings B, C, and D: $4,717,927 of ineligible and unsupported contract costs that
       were either not supported by documentation, duplicated, or not billed according to
       contract terms); and
   •		 Finding F: $736,000 of ineligible costs to be reduced by insurance proceeds.




                                               2

In addition, FEMA should complete its insurance review to allocate insurance proceeds to
applicable projects (finding F) and should deobligate $27,518 and put those federal funds to
better use (finding E).

Finding A: Contracting

Jesuit did not follow federal procurement standards in awarding four contracts totaling
$12,027,768. Federal regulations at 2 CFR Part 215, in part, require subgrantees to comply
with the following procurement standards:

    •	 All procurement transactions shall be conducted in a manner to provide, to the
        maximum extent practical, open and free competition. (2 CFR 215.43)
    •		 “Cost-plus-a-percentage-of-cost” methods of contracting shall not be used. (2 CFR
        215.44(c))
    •	 Some form of cost or price analysis shall be made and documented in the procurement
        files in connection with every procurement action. (2 CFR 215.45)
    •		 Specific provisions shall be included in all contracts and subcontracts. 

        (2 CFR 215.48) 


Jesuit awarded four noncompetitive contracts totaling $12,027,768, including one cost-plus-
percentage-of-cost contract. Additionally, Jesuit did not always perform the required cost or
price analyses and did not include required provisions in any of its contracts.

Noncompetitive and Prohibited Contracts

Jesuit did not openly compete four contracts totaling $12,027,768 for permanent repair work
and design and inspection services. One of the contracts totaling $1,945,315 was a prohibited
cost-plus-percentage-of-cost contract.

Generally, open and free competition means that all responsible sources are allowed to
compete for contracts. Jesuit did not advertise for its contracts, but invited five preselected
contractors to bid on construction projects, and awarded a professional service contract
without competition. Jesuit officials stated that they followed the guidance FEMA provided
to them in awarding contracts after inviting a preselected group of contractors to submit bids.
FEMA did advise Jesuit that FEMA procurement policy requires three bids to obtain
reasonable pricing; however, this advice was not sufficient to comply with federal
procurement regulations. Jesuit officials also stated that they awarded architectural and
engineering contracts without solicitations because of their long-standing relationships with
the contractors.

During our exit briefing, Jesuit officials stated that they sought solicitations from 15 pre-
selected contractors, not the 5 we identified; however, Jesuit did not provide documentation to
support their statement that they solicited more than 5 contractors. Jesuit officials also
stated that “word of mouth” was the most effective way to provide open and free competition,
considering the state of affairs in New Orleans after the disaster. Jesuit’s architect solicited
proposals from January 3–24, 2006, to restore damaged facilities. However, on



                                               3

January 3, 2006, the local New Orleans newspaper included public notices of contractor
solicitations. Because a public notification system was available on the date Jesuit began its
solicitations, it should have used open and free competition to allow all responsible sources to
compete. Jesuit officials stated that they did not limit the number of potential contractors and
accepted bids from any interested party; however, they could not have known the number of
potential contractors without open and free competition.

FEMA attempted to determine whether the cost for one of Jesuit’s contracts was reasonable
by comparing it to another school’s contract with the same contractor. However, the two
contracts had different scopes of work, and the other school also did not compete its contract.
FEMA’s comparison of the same contractor with different work scopes, especially to a
contract that was not competed, did not provide a reliable or appropriate basis for determining
the reasonableness of cost.

Regardless, even if FEMA’s cost analysis had accurately determined that the contract costs
were reasonable, federal procurement regulations require open and free competition to the
extent practicable, not only to achieve a reasonable cost, but also to allow all qualified,
responsible parties an equal chance to compete for the work. Generally, FEMA’s practice has
been to allow contract costs it considers reasonable, regardless of whether the contract
complies with federal procurement regulations. We do not agree with this practice unless
lives and property are at stake, because the goals of proper contracting relate to more than just
cost. Open and free competition usually increases the number of bids received and thereby
increases the opportunity for obtaining reasonable pricing from the most qualified contractors.
Open and free competition also helps to discourage and prevent favoritism, collusion, fraud,
waste, and abuse.

One of the noncompetitive contracts that Jesuit awarded was a prohibited cost-plus-
percentage-of-cost contract totaling $1,945,315 for its initial emergency and restoration work.
Although the contract was awarded under exigent circumstances, cost-plus-percentage-of-cost
contracts are specifically prohibited. These types of contracts provide no incentive for the
contractor to control costs. For example, Jesuit claimed costs for work covered under this
contract that included markups of 21% for a fully burdened (overhead and profit included in
rates) subcontract and another 21% markup on those costs by the general contractor, also for a
fully burdened contract.

Jesuit officials contended the contract was not a cost-plus-percentage-of-cost contract because
it contained a not-to-exceed guaranteed maximum price. A guaranteed maximum price does
not change the type of contract. A not-to-exceed price may limit the amount of total costs
incurred, but it does not provide an incentive for the contractor to control costs before
reaching the guaranteed maximum price specified by the contract.




                                                4

Cost or Price Analysis

Jesuit did not perform a cost or price analysis on three of its four contracts, and therefore
increased the likelihood that unreasonable costs, misinterpretation, or errors related to scopes
of work would occur. Jesuit officials confirmed that they did not perform formal cost or price
analyses before most of its procurements, including 76 contract change orders.

Contract Provisions

Jesuit did not include the required provisions in its contracts and subcontracts. We reviewed
four contracts and all subcontracts with costs over $100,000, and none of them contained
more than portions of the required provisions. The required provisions document the rights
and responsibilities of the parties and minimize the risk of misinterpretations and disputes.

Because Jesuit awarded contracts without full and open competition and awarded a prohibited
cost-plus-percentage-of cost contract, we question $10,849,610 as ineligible contract costs
($12,027,768 minus $1,178,158 insurance proceeds and SBA loan proceeds applied). This
amount includes $4,717,927 that we also question in findings B, C, and D. Therefore, the net
amount of total questioned costs for finding A is $6,131,683 (see Exhibits A, Schedule of
Questioned Costs, and B, Costs Questioned Under Multiple Criteria).

Finding B: Duplicate Funding

Jesuit received $4,693,265 of duplicate funding for damages resulting from the disaster. After
the disaster, Jesuit received $4,693,265 in donations designated for a “Katrina Fund.” Jesuit’s
2009–2010 President’s Report states that the fund was set up to help pay for the extensive
repairs and renovation to Jesuit’s facilities. Jesuit officials said these funds were not used for
the repair and renovation purposes stated in the President’s Report, but were used to offset
revenue decreases after the disaster. Jesuit later provided previous versions of the President’s
Report, which state that the “Katrina Fund” donations were to be used for facility repair costs
not covered by insurance and FEMA grant funding. However, Jesuit has not provided
documentation to prove these funds were not used for the same purpose as the FEMA grant
funds.

Section 312(a) of the Stafford Act states that no entity will receive assistance for any loss for
which financial assistance has already been received from any other program, from insurance,
or from any other source. Further, Public Assistance Policy Digest (FEMA 321, p. 34) states
that grants and cash donations from nonfederal sources designated for the same purpose as
public assistance funds are considered a duplication of benefits. Therefore, because Jesuit
designated its “Katrina Fund” for the same purpose as its FEMA grant, we question
$4,693,265 of ineligible duplicate costs claimed.




                                                5

Finding C: Contract Charges

Jesuit’s claim included $20,369 for contract costs that were ineligible because the contractor
did not bill the costs according to the contract terms and conditions. The contract specified a
markup of 20%; however, the contractor billed markups of 21% and 25%. The contractor
billed $20,369 of markups in excess of the 20% allowed in the contract. Accepting contract
prices at rates higher than stipulated in a contract is a waste of federal funds, encourages abuse
of the contract process, and invites acts of fraud. Jesuit officials said that the contract
included a 10% overhead rate and a 10% profit rate calculated by applying the 10% profit to
the costs already marked up by the 10% overhead, resulting in a 21% markup. However, the
contractor’s cost estimate incorporated into the contract applied overhead and profit separately
to total contract costs for a 20% markup. Therefore, the billing rates were not according to the
contract terms and are ineligible. As a result, we question $20,369 of ineligible contract costs.

Finding D: Documentation

Jesuit’s claim included $4,293 of unsupported costs. Jesuit claimed $649,252 of contract
costs for work under several projects, but provided support for only $644,959. Cost principles
at 2 CFR 215.21(b)(2) and (7) state that a cost must be adequately documented to be
allowable under federal awards. Further, FEMA’s Public Assistance Guide (FEMA 322,
October 1999) states that applicants must carefully document contractor expenses. Therefore,
we question $4,293 as unsupported costs. GOHSEP and Jesuit officials generally agreed with
this finding but said that they will look for additional support.

Finding E: Funds Put to Better Use

Jesuit completed work and claimed $478,070 for Project 16617, which was $27,518 less than
the total amount FEMA estimated and approved for the project. Jesuit completed the project
more than 3 years ago and had requested project closeout. Therefore, FEMA should
deobligate $27,518 of unneeded funds and put those federal funds to better use. GOHSEP and
Jesuit officials agreed with this finding.

Finding F: Insurance Review

FEMA had not completed its insurance review at the start of our audit. Jesuit received
$4,343,123 of property insurance proceeds, but FEMA had allocated only $666,878 to Jesuit’s
projects. Some of the insurance proceeds were for costs not eligible for FEMA funding, such
as interest expenses and loss of tuition. However, we estimated that approximately $736,000
of additional insurance proceeds may be applicable to FEMA-eligible projects. Therefore,
FEMA should complete its insurance review and allocate the applicable insurance proceeds to
Jesuit’s projects. FEMA officials said that they would reduce project funding obligations
upon completion of their review. GOHSEP and Jesuit officials agreed with this finding.




                                                6

                                  RECOMMENDATIONS



We recommend that the Regional Administrator, FEMA Region VI:

   Recommendation #1: Disallow $6,131,683 ($6,131,683 federal share) of improperly
   contracted costs that were ineligible (finding A).

   Recommendation #2: Disallow $4,693,265 ($4,693,265 federal share) of ineligible
   duplicate funding (finding B).

   Recommendation #3: Disallow $20,369 ($20,369 federal share) of ineligible contract
   costs billed in excess of contract terms (finding C).

   Recommendation #4: Disallow $4,293 ($4,293 federal share) of unsupported costs
   (finding D).

   Recommendation #5: Deobligate $27,518 ($27,518 federal share) and put those federal
   funds to better use (finding E).

   Recommendation #6: Complete the insurance review and allocate approximately
   $736,000 of applicable insurance proceeds to Jesuit’s projects and disallow those amounts
   from the projects as ineligible (finding F).


           DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Jesuit officials during our audit and included their
comments in this report, as appropriate. We also provided written summaries of our findings
and recommendations in advance to FEMA, GOHSEP, and Jesuit officials and discussed them
at exit conferences held with FEMA officials on July 7, 2011, and with GOHSEP and Jesuit
officials on July 15, 2011. FEMA officials generally agreed with our findings and
recommendations. However, FEMA officials did state that FEMA will not agree to disallow
the value of any improperly procured contracts identified in finding A if the costs were
reasonable, even if they were incurred under prohibited contract types. GOHSEP withheld
comments except as stated in the report. Jesuit officials disagreed with all findings and
recommendations except findings E and F.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.




                                              7

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this
report will be posted to our website, with the exception of sensitive information identified by
your office. Significant contributors to this report were Tonda Hadley, Paige Hamrick, and
Timothy Scott.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.

cc:    	 dministrator, FEMA
       A
       Executive Director (Acting), FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-10-010)
       Audit Liaison, DHS




                                              8

                                                                                                    EXHIBIT A
                                          Schedule of Questioned Costs
                                        August 29, 2005, to May 14, 2010
                                   Jesuit High School, New Orleans, Louisiana 

                                      FEMA Disaster Number 1603-DR-LA 



                                                                                                              Net
 Project       Net Award        Net Claim         Finding       Findings B   Finding      Total Costs     Deobligation
 Number         Amount           Amount              A            and C         D         Questioned        Amount
   16351       $ 6,433,969       $6,433,969       $6,433,969    $4,693,265    $      0    $11,127,234          $       0
   10323         1,569,012         1,569,012       1,569,012             0           0        1,569,012                0
   16617           505,588          478,070          478,070             0        4,293        482,363             27,518
   17028           422,931          422,931          422,931             0           0         422,931                 0
   8572            389,631                  0               0            0           0               0                 0
   5075            375,724          375,724          375,724         3,921           0         379,645                 0
   5130            309,190          309,190          309,190         4,474           0         313,664                 0
   5102            277,531          277,531          277,531         2,775           0         280,306                 0
   8563            220,286                  0               0            0           0               0                 0
   16336           186,495          186,495          186,495         1,865           0         188,360                 0
   5106            169,995          169,995          169,995         1,700           0         171,695                 0
   5061            147,460          147,460          147,460         1,475           0         148,935                 0
   16308           128,990          128,990          128,990         1,290           0         130,280                 0
   16329           113,262          113,262          113,262         1,133           0         114,395                 0
   16339            87,121              87,121        87,121          871            0          87,992                 0
   16337            86,470              86,470        86,470          865            0          87,335                 0
   10054            63,390              63,390        63,390             0           0          63,390                 0
  Subtotals    $11,487,045      $10,849,610      $10,849,610    $4,713,634    $4,293      $15,567,537          $27,518
Insurance to Be Allocated (finding F)                                                     $    736,000
  Subtotals    $11,487,045      $10,849,610      $10,849,610    $4,713,634    $4,293      $16,303,537
Less Costs Questioned Twice
  (from exhibit B)                               ($4,717,927)                             ($4,717,927)
     Grand
      Totals   $11,487,045      $10,849,610      $ 6,131,683    $4,713,634    $4,293      $11,585,610
Total Net Questioned Costs Recommended for Disallowance                                   $11,585,610
Total Costs Recommended for Deobligation (finding E)                                                           $27,518
                                                                                                           EXHIBIT B
                               Costs Questioned Under Multiple Criteria
                                     August 29, 2005, to May 14, 2010
                              Jesuit High School, New Orleans, Louisiana 

                                 FEMA Disaster Number 1603-DR-LA




                               Net Award     Amount                 Amounts
                                Amount      Questioned             Questioned
                Project           (from       (from                 More than   Net Costs
                                                                           3
                Number         Exhibit A) Exhibit A)                  Once      Questioned
                 16351          $6,433,969 $11,127,234             ($4,693,265)  $6,433,969
                 10323           1,569,012   1,569,012                        0   1,569,012
                 16617             505,588      482,363                 (4,293)     478,070
                 17028             422,931      422,931                       0     422,931
                  8572             389,631            0                       0           0
                  5075             375,724      379,645                 (3,921)     375,724
                  5130             309,190      313,664                 (4,474)     309,190
                  5102             277,531      280,306                 (2,775)     277,531
                  8563             220,286            0                       0           0
                 16336             186,495      188,360                 (1,865)     186,495
                  5106             169,995      171,695                 (1,700)     169,995
                  5061             147,460      148,935                 (1,475)     147,460
                 16308             128,990      130,280                 (1,290)     128,990
                 16329             113,262      114,395                 (1,133)     113,262
                 16339               87,121      87,992                   (871)      87,121
                 16337               86,470      87,335                   (865)      86,470
                 10054               63,390      63,390                       0      63,390
                 Totals        $11,487,045 $15,567,537             ($4,717,927) $10,849,610

               Insurance to Be Allocated (finding F)                                  $ 736,000
               Total Net Questioned Costs                                             $11,585,610




3
  The $4,717,927 of ineligible and duplicate costs (findings B–D) is also questioned as improper contracting costs
(finding A). Recommendation 1 (finding A) is to disallow $6,131,683 of questioned improper contracting costs,
which is net of the $4,717,927 that is questioned in findings B–D. Therefore, if FEMA does not disallow the
$4,717,927 of ineligible and unsupported costs, it should add back that amount to increase the amount of
recommendation 1 to $10,849,610.
